1600 Wilson Boulevard, Suite 700
Arlington, VA 22209
703.243.9423
www.consovoymccarthy.com

May 18, 2020
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NW
Washington, DC 20543-0001
Re:

CIC Services, LLC v. Internal Revenue Service, et al., No. 19-930

Dear Mr. Harris:
I represent the Petitioner in the above-captioned matter. The Court
granted the petition for a writ of certiorari in this case on May 4, 2020.
Petitioner’s brief is currently due June 18, 2020.
I write on behalf of all parties to request extensions of time for filing the
merits briefs and joint appendix in this case, pursuant to Rule 30.4 of the Rules
of this Court, as follows:
Brief for Petitioner and joint appendix:
Brief for Respondents:
Reply Brief for Petitioner:

July 15, 2020
September 8, 2020
October 9, 2020

All parties have agreed to the foregoing schedule, which would enable this case
to be heard as early as the Court’s argument session beginning November 2,
2020.
Sincerely,

Patrick Strawbridge
cc:

Counsel for Respondents

